                         AUDIT OF THE
                    DEPARTMENT OF JUSTICE
           OFFICE OF THE FEDERAL DETENTION TRUSTEE

                             EXECUTIVE SUMMARY
       In Fiscal Year (FY) 2001, Congress approved the Department of Justice
(Department or DOJ) request for the establishment of the Office of the
Federal Detention Trustee (OFDT or office). Historically, the confinement of
persons in federal custody awaiting trial or immigration proceedings
(i.e., detention) was the responsibility of the U.S. Marshals Service (USMS)
and the former Immigration and Naturalization Service (INS).1 However,
there have been longstanding concerns with the cost, efficiency, and safety
of federal detention, and the involvement of two separate components
resulted in a fragmented approach to detention management. Because of
the magnitude of these issues, detention was a longstanding DOJ material
weakness and one of its top management challenges for over 10 years. The
Department created a working group to address the matter, and this group
concluded that a central command structure was key to realizing cost
savings and improving efficiency in managing detention activities.

        The DOJ Appropriations Act of 2001 therefore provided $1 million to
establish the OFDT as a separate component within the Department
reporting to the Deputy Attorney General. As directed by Congress, the
initial objective of the new office was to centralize responsibility for
detention to better manage and plan for needed detention resources without
unwanted duplication of effort or competition with other Department
components. The law provided that the OFDT was to:

     [E]xercise all power and functions authorized by law relating to
     the detention of Federal prisoners in non-federal institutions or
     otherwise in the custody of the United States Marshal Service
     and the detention of aliens in the custody of the Immigration
     and Naturalization Service…2




       1
          The detention activities of the former INS were transferred to the new Bureau of
Immigration and Customs Enforcement (ICE) when the Department of Homeland Security
(DHS) was created in March 2003. This governmental reorganization proved to be one in a
series of challenges for the OFDT that are discussed in this report.
       2
           Public Law 106-553, enacted December 21, 2000.
Detention Growth

      One of the challenges facing the OFDT was the significant growth in
detention. The number of detainees held by the INS/ICE and the USMS
increased from 25,675 in 1994 to 69,615 in 2003. On average, the number
of detainees increased at an annual rate of almost 12 percent between 1994
and 2003, resulting in a total increase of over 171 percent.

                        DETAINED CRIMINAL DEFENDANTS AND ALIENS3

                        80,000

                        70,000

                        60,000
            DETAINEES




                        50,000
                                                                                     INS/ICE
                        40,000                                                       USMS
                                                                                     Total
                        30,000

                        20,000

                        10,000

                            0
                                 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003
                                                       YEAR


                                 Source: Office of the Federal Detention Trustee

      This growth has, in turn, generated the need for additional funding for
bed space, transportation, medical costs, support services, and associated
personnel. To illustrate, when 25,675 detainees were being held by the
Department as of September 30, 1994, a total of about $690 million was
expended that fiscal year for detention. In comparison, the administration’s
FY 2003 budget request included over $1.3 billion in funding for detention,
about $700 million for the USMS and $600 million for the INS.4 Over this
same 10-year period, the average daily rate for detention beds rose from
about $54 to $61 per bed. This represents a modest 13-percent increase in
the daily bed rate compared to the 171-percent increase in the number of
detainees cited above. These statistics help illustrate that the rising costs of
      3
          Population counts represent the population on September 30 of each year. As of
July 31, 2004, the total population was 72,956; 52,951 were in USMS custody and 20,005
were ICE detainees.
      4
         Since the INS was transferred out of the DOJ in March 2003, the FY 2003 budget
was the last time federal detention costs were budgeted together. The DOJ detention
budget for FY 2004 was originally approved in January 2004 at $814 million.

                                                         - ii -
detention are primarily due to the significant increase in the number of
detainees.

Audit Objectives and Results

      The objectives of this Office of the Inspector General (OIG) audit
were to: 1) review the funding and the accomplishments of the OFDT
since its inception in FY 2001; 2) determine how the OFDT coordinates and
oversees detention activities within the Department; and 3) examine the
OFDT’s plans and goals for managing detention needs. Additional
information on our audit objectives, scope, and methodology is contained
in Appendix I.

      In brief, we found that although the office has been in place for almost
four years, the OFDT has not been able to complete the goal of centralizing
and overseeing detention activities. The former INS’s transfer to the DHS,
congressional action, leadership vacancies, and other obstacles have
complicated the OFDT’s ability to build a firm foundation with a clearly
defined organizational purpose. In addition, the area of detention has
recently experienced funding shortages that have caused the need for funds
to be transferred to the OFDT from other Department initiatives.

Obstacles to the OFDT Mission

      The Department’s proposal for the creation of the OFDT stated that the
agency would be a small office operated separately from the existing
components involved in detention to oversee the various activities and
develop solutions to issues that went beyond individual component interests.
Its budget in each of the first two years of operation was only about
$1 million. This changed dramatically in FY 2003 when it was given
authority over the entire $1.3 billion DOJ detention budget. The staff size
has grown from its original ceiling of 3 individuals to its current level of 18.

       Despite this growth, the OFDT has encountered significant obstacles in
its ability to achieve its mission of overseeing detention, resulting in the
office being seen by officials both inside and outside of the Department as an
unstable organization with an uncertain future. For example:

      •     In March 2002, just six months after the hiring of the first
            Detention Trustee, the Department began planning to eliminate
            the OFDT as an independent entity and transfer its functions and
            personnel into the Federal Bureau of Prisons (BOP). In May 2003,


                                     - iii -
              the Office of Management and Budget (OMB) officially rejected the
              proposal because it wanted the OFDT to remain independent.

       •      In January 2003, the first Detention Trustee retired after having
              served just 15 months. The position was then vacant for almost
              18 months, while the OFDT Director of Programs served as the
              Acting Detention Trustee. In June 2004, after a prolonged
              search for a suitable applicant, the Department transferred an
              experienced executive (who was serving as a USMS Assistant
              Director in the Prisoner Services Division) into the Detention
              Trustee position.

       •      The OFDT’s budget was greatly enhanced in FY 2003 when it
              received full monetary authority for all Department detention
              activities in non-federal facilities. The OFDT’s budget grew from
              about $1 million to over $1.3 billion. The office was ill-equipped
              to handle such a large change in fiscal responsibility. At the time
              of the enhancement, the OFDT had five employees on board.

       •      In March 2003, the INS was reorganized, in part, into the newly
              created Department of Homeland Security (DHS), Bureau of
              Immigration and Customs Enforcement (ICE). This
              reorganization resulted in the transfer of significant detention
              activities and funding outside of the DOJ, once again
              fragmenting the government’s efforts related to detention. An
              Interagency Agreement (IAA) was enacted between the OFDT
              and ICE in January 2004 that called for the OFDT to provide ICE
              with certain detention services, such as contracting support and
              facility inspections. However, to date, this agreement has not
              solved the fragmentation because it gives the OFDT only limited
              involvement in ICE detention activities.

       •      Beginning in the FY 2002 budget and appropriation process,
              Congress began indicating that it wanted the OFDT to take over
              management responsibility for the Justice Prisoner and Alien
              Transportation System (JPATS), currently under the control of
              the USMS.5 As the OFDT was first proposed and created to be a
              small oversight office, this direction appeared to signal a change
              in the spirit and character of the OFDT by adding duties of a
       5
          Created in 1995 through the merger of the air fleets operated by the USMS and the
former INS, JPATS operates a fleet of aircraft, cars, vans, and buses to transport prisoners and
detainees to courts and detention/incarceration facilities. On average, more than 270,000
prisoner and alien movements a year are completed by JPATS. In FY 2004, JPATS employed 146
permanent staff in addition to 210 contract employees and had a budget of $87 million.

                                             - iv -
            more operational nature. When the FY 2003 budget was passed
            in February 2003, Congress directed the Department to transfer
            the management of JPATS to the OFDT. Although the FY 2003
            budget also raised the OFDT staff size to 18, the office had only
            five staff on board, and the Detention Trustee position was
            vacant at the time the legislation was passed. Therefore,
            Department officials believed that transferring JPATS was not
            feasible at that time. The FY 2004 budget again included
            provisions for the management of JPATS to be transferred to the
            OFDT. The Department is reviewing the current situation and
            discussing available options with Congress. In the meantime,
            JPATS remains under the USMS.

       In our judgment, the OFDT’s progress has been hampered by the lack
of a clear and consistent purpose. Both Congress and Department officials
seem to have wavered on the intended role and functions of the office. In
addition, the former INS and its detention activities and funding were
transferred to DHS, and the Detention Trustee position remained vacant for
an extended period. These factors made it difficult for the OFDT to move
forward in addressing detention weaknesses. Instead the office was focused
on addressing the issue of the moment (e.g., the proposed merge with the
BOP, the IAA with ICE) and the completion of individual tasks, such as
reports requested by Congress or other special projects.

Recent Developments and the Future

       After an extended vacancy, the Department placed an experienced
executive in the Detention Trustee position in June 2004. The new
Detention Trustee has acknowledged the weaknesses in the OFDT’s
operations due to the lack of a clear and consistent vision for the
organization. She has provided a proposal to DOJ management for the
OFDT to undertake an oversight role, including strategic management
(e.g., advanced procurement planning and standardization of per diem rates
for housing detainees), budget execution and formulation (e.g., forecasting
and statistical analysis), and policy setting (e.g., cost containment initiatives
and confinement standards), rather than an operational role requiring day-
to-day OFDT involvement in contract management, facility inspections, and
other routine tasks.

     In recent correspondence, Department officials have expressed to
Congress that it is committed to having the OFDT lead the effort in
addressing the myriad detention problems that have plagued the
Department. Congress responded that it considers the Department’s recent

                                      -v-
actions to be positive steps to address detention issues and remains in
support of the OFDT.

Detention Funding Shortfalls

       The OFDT faces another challenge related to detention forecasting and
budgeting. Recent budget projections of detention bed space needs have
been significantly inaccurate. The OFDT attributes these inaccuracies to
weaknesses in the statistical model used to calculate the projections.
Because the significant growth in detention was not accurately projected by
the statistical model, which was developed by a USMS contractor, detention
activities needed a budgetary bailout from other Department funding
sources.

      In FYs 2003 and 2004, the OFDT recognized that the funds budgeted
for detention would fall short of the amount needed to fully fund activities.
The receipt of $40 million in wartime supplemental funds rectified the
shortfall in FY 2003. For FY 2004, however, the Department was required
to reprogram $109 million from other initiatives to cover the shortage.
Further, the Department has shifted $150 million in funds previously
budgeted for other Department initiatives into the OFDT’s FY 2005 budget
request.

       According to Department officials, the primary cause of the shortfalls
was a significant increase in the number of detainees. These increases far
exceeded the forecasts used to calculate the budget requests. OFDT officials
have acknowledged limitations of the statistical model used to develop the
forecasts, and they hope to improve the accuracy of future projections by
expanding the model to incorporate additional factors, such as law
enforcement and prosecutorial resources and initiatives. Further, the
Department has stated that the increasing trend in the detainee population
is expected to continue. In response, the Department is embarking upon
several initiatives coordinated by the OFDT to help contain the growth in
detention costs. For example, the new Detention Trustee is heading a new
high-level, interagency steering committee established to reduce the time
individuals spend in detention, and the OFDT is working with the federal
judiciary to raise the awareness of detention costs and projected shortfalls.
The Department acknowledged that the dynamic detention environment
includes significant factors outside its control but that it intends to make
every effort to eliminate the need for funds to be transferred from other
sources to cover detention budget shortfalls.



                                     - vi -
        We believe the Department and the OFDT should also examine the
current strategy and practices for acquiring detention space in non-federal
facilities. According to the OFDT, detainee housing and subsistence
constitutes about 90 percent of its total program costs (about $800 million).
The primary method for obtaining non-federal detention space is entering
into Intergovernmental Service Agreements (IGAs) with state and local
governments for jail beds.6 In previous OIG audits of IGAs, we have
identified questioned costs related to the daily rate charged to house federal
detainees. In 17 audits between FYs 1998 and 2003, we reported
questioned costs in excess of $21 million, which were primarily due to the
state or local governments’ inclusion of unallowable, unallocable, or
unsupported costs in the computation of the daily rate.

Recommendations

       As a result of our review, we have provided eleven recommendations
to assist the Department and the OFDT in the endeavor to improve the
Department’s management of detention activities. The Department and the
OFDT must address the continued lack of accuracy in estimating the cost of
detention activities that has caused shortfalls to occur and must take steps
to help contain the continually rising costs of detention. In addition, the
Department must take firm action to establish the role and functions of the
OFDT, particularly in relation to ICE and JPATS. The role and functions must
then be clearly communicated to all stakeholders through the development
of a strategic plan. Once this is done, the OFDT can begin to concentrate on
tasks that contribute to the accomplishment of its mission. The new
Detention Trustee has generally agreed with our findings and has begun
taking steps to address them.




       6
          IGAs are agreements whereby state and local facilities provide bed space for
federal detainees on a per diem basis. Once the daily rate is negotiated and the IGA is
signed, the jail provides bed space as available and needed; however, bed space is not
guaranteed. The USMS and ICE have established over 1,500 IGAs across the country,
about half of which are utilized at a given time.

                                           - vii -
            AUDIT OF THE DEPARTMENT OF JUSTICE
          OFFICE OF THE FEDERAL DETENTION TRUSTEE

                               TABLE OF CONTENTS
                                                                                             Page

INTRODUCTION .................................................................................. 1

       Nature of Detention..................................................................... 1
       Growth of Detention .................................................................... 2
       The Detention Problem ................................................................ 3
       Establishment of the OFDT ........................................................... 4
       Audit Objectives ......................................................................... 5

FINDINGS AND RECOMMENDATIONS ..................................................... 6

1.     The Role and Functions of the OFDT .............................................. 6

       Standing Up the OFDT ................................................................. 6
       The Department’s Plan to Merge the OFDT into the BOP ................... 7
       OFDT Leadership ........................................................................ 8
       FY 2003 Budget Enhancement ...................................................... 8
       Creation of the Department of Homeland Security ........................... 9
       Reimbursement Agreements with USMS for Detention Funding........ 11
       Addition of JPATS...................................................................... 12
       Department’s Plans to Enhance the OFDT ..................................... 13
       Construction of Non-Federal Detention Facilities ............................ 14
       Need for Establishment of the OFDT’s Role and Functions ............... 15
       Recent Developments ................................................................ 15
       The Future of the OFDT ............................................................. 17
       Conclusion ............................................................................... 18
       Recommendations..................................................................... 19

2.     Budget Shortfalls ..................................................................... 21

       Detention Projections and Budgeting ........................................... 21
       Identification of FY 2003 and FY 2004 Shortfalls ............................ 22
       Congressional Action and Department Response............................ 23
       Potential Cost Savings Related to IGAs......................................... 25
       FY 2005 and Future Projections................................................... 26
       Conclusion ............................................................................... 27
       Recommendations..................................................................... 28
STATEMENT ON INTERNAL CONTROLS ................................................. 29

APPENDIX     I -   OBJECTIVES, SCOPE, AND METHODOLOGY .................. 30

APPENDIX II -      OFDT REPORTS AND PROJECTS .................................. 32

APPENDIX III -     TIMELINE OF SIGNIFICANT EVENTS ............................ 36

APPENDIX IV -      OFDT RESPONSE ...................................................... 37

APPENDIX     V-    OIG ANALYSIS AND SUMMARY OF ACTIONS
                     NECESSARY TO CLOSE THE REPORT........................ 42
                             INTRODUCTION

      Two components within the Department of Justice (Department or
DOJ) – the U.S. Marshals Service (USMS) and the former Immigration and
Naturalization Service (INS) – were historically responsible for the
detention of persons in federal custody awaiting trial or immigration
proceedings. However, two components performing essentially the same
function resulted in a fragmented management structure over federal
detention. To centralize the detention function with the Department,
Congress acted upon the DOJ’s recommendation and established the Office
of the Federal Detention Trustee (OFDT) in Fiscal Year (FY) 2001. This
centralized command structure was envisioned as key to realizing
cost-savings and gaining efficiencies.

       However, detention in the DOJ changed in 2003 when the INS was
transferred to the newly formed Department of Homeland Security (DHS).
Detention of aliens is now the responsibility of the DHS Bureau of
Immigration and Customs Enforcement (ICE). This change has presented
major challenges for the OFDT. However, this change is only one of the
numerous obstacles that the office has encountered in its short existence.
In this Introduction, we provide background information on detention and
the establishment of the OFDT. The INS transition to DHS and the other
obstacles faced by the OFDT are discussed individually in Finding 1.

Nature of Detention

       Detention refers to the temporary holding of individuals charged with
federal crimes or pending immigration hearings or removal proceedings.
Ideally, detainees are housed near court locations in the proper jurisdiction
or in proximity to alien removal locations. Detention facilities can be
federal, state or local, or private. The USMS and ICE have housed
detainees in all three types. According to the OFDT, detainee housing and
subsistence in non-federal facilities constitutes about 90 percent of its total
program costs.

      Detention space in state or local jails is obtained through the execution
of Intergovernmental Service Agreements (IGAs). These are agreements
whereby state and local facilities provide bed space for federal detainees on
a per diem basis. Once the daily rate is negotiated and the IGA is signed,
the jail provides bed space as available and needed; however, bed space is
not guaranteed. The USMS and ICE have established over 1,500 IGAs
across the country, about half of which are utilized at a given time.
       In contrast to detention, incarceration refers to the confinement of
individuals convicted of and sentenced for federal crimes. The Federal
Bureau of Prisons (BOP), whose primary responsibility is incarceration, has
played a supporting role in detention activities by housing a portion of
federal detainees in BOP stand-alone detention centers and units in
correctional facilities.7 Detention differs markedly from incarceration in
terms of population stability. Detention is temporary in nature and entails
the constant movement of detainees in and out of facilities, while
incarceration is more long-term and involves less movement of individuals.

Growth of Detention

       As shown in the following graph, federal detention has grown
significantly. On average, the number of detainees increased at an annual
rate of almost 12 percent between 1994 and 2003, resulting in a total
increase of over 171 percent.

                          DETAINED CRIMINAL DEFENDANTS AND ALIENS8

                80,000

                70,000

                60,000

                50,000
    DETAINEES




                                                                                                  INS/ICE
                40,000                                                                            USMS
                                                                                                  Total
                30,000

                20,000

                10,000

                      0
                          1994   1995     1996   1997   1998   1999   2000   2001   2002   2003
                                                          YEAR

                                        Source: Office of the Federal Detention Trustee



                7
                    Funds for detainees held in BOP facilities are included in the BOP’s budget.
                8
          Population counts represent the population on September 30 of each year. As of
July 31, 2004, the total population was 72,956; 52,951 were in USMS custody and 20,005
were ICE detainees.

                                                               -2-
       Such growth has generated the need for additional funding for bed
space, transportation, medical costs, support services, and associated
personnel. In FY 1994, when 25,675 detainees were being held by the
Department as of September 30, a total of about $690 million was expended
for detention. In comparison, when the FY 2003 budget was prepared, the
administration requested over $1.3 billion for detention, about $700 million
for the USMS and $600 million for the INS.9 Over this same 10-year period,
the average per diem rate for non-federal detention beds in use rose from
about $54 to $61. This represents a modest 13-percent increase compared
to the 171-percent increase in the number of detainees. The OFDT
attributed the growth in detainees to new law enforcement initiatives,
departmental and agency policies, and laws enacted by Congress that
resulted in increasing numbers of arrests or apprehensions of illegal aliens or
individuals suspected of violating federal laws.

The Detention Problem

      Longstanding Department concerns with the cost, efficiency, and
safety of federal detention resulted in detention space being considered a
"material weakness" and one of the Top Management Challenges facing the
Department. Over the years, the Department has examined these problems
with studies, reports, and the Detention Planning Committee (DPC), which
was created in 1989 and headed by the Deputy Attorney General.

      In 2000, the DPC found that the Department lacked a systemic
method of identifying or coordinating bed space needs. For example, the
USMS and INS used different means and methods to predict detainee
populations, making it difficult to plan for overall detention needs in the
Department. Additionally, the USMS and the INS were acting independently
and did not utilize a standard procurement process to obtain detention
space. As a result, the two agencies were not able to benefit from potential
economies of scale that might be realized during negotiations for detention
space.

     In addition, the DPC found that the Department lacked consistent
detention standards that applied to non-federal facilities utilized by each
component. The lack of standards led to inconsistent practices, confusion
among detention providers, and lack of accountability. Also, these facilities
were not adequately monitored to ensure safe, secure, and humane

      9
         Since the INS was transferred out of the DOJ in March 2003, the FY 2003 budget
was the last time federal detention costs were budgeted together. The DOJ detention
budget for FY 2004 was originally approved in January 2004 at $814 million.

                                          -3-
conditions of confinement. Standards for inspections were inconsistent,
inspection staff lacked subject matter expertise, and no system existed to
ensure corrective action and follow-up.

       The DPC concluded that a central command structure would be the key
to realizing cost savings and gaining efficiency in managing detention
activities. As a result, in FY 2000 the Department asked the Office of
Management and Budget (OMB) for approval to establish a “Detention
Trustee” to oversee detention functions within the Department. OMB
concurred and forwarded the request to Congress.

Establishment of the OFDT

      In response to the Department’s request and in recognition of the
continuing difficulty in planning for and obtaining detention space, Congress
established the OFDT in FY 2001. The law provided that the OFDT was to:

     [E]xercise all power and functions authorized by law relating to
     the detention of Federal prisoners in non-federal institutions or
     otherwise in the custody of the United States Marshal Service and
     the detention of aliens in the custody of the Immigration and
     Naturalization Service…10

       According to the OFDT, the initial objective of the office was to
centralize responsibility for detention to better manage and plan for needed
detention resources without the prospect of unwanted duplication of effort or
competition with other Department components. With this broad authority
and responsibility, the OFDT stated that it was expected to implement
business process improvements and identify areas where operational
efficiencies and cost-savings could be realized.

      Language in a House of Representatives report related to the legislation
creating the Detention Trustee directed the OFDT to focus on two regional
detention pilot projects ("hot spots") to examine the efficiency of centralizing
detention operations into a single office.11 According to the OFDT, the office
was also tasked with conducting a needs assessment of detention and

       10
            Public Law 106-553, enacted on December 21, 2000.
       11
          House Report 106-680 was silent as to the exact locations of the “hot spots” to be
addressed; however, the pilot projects were to be located in the Midwest and along the
Southwest Border. The OFDT selected the specific locations as Chicago, Illinois, and
El Paso, Texas/Las Cruces, New Mexico. More information on these projects can be found in
Appendix II.

                                           -4-
detainee handling requirements and describing the present efficiency and
effectiveness of all aspects of detention and detainee handling. This
assessment would establish a baseline against which subsequent process
improvements and the efficiency of consolidation would be measured.

       Additional responsibilities included developing and implementing
consistent detention standards that would apply to non-federal facilities
utilized by the Department. Also, the OFDT was responsible for ensuring
that these non-federal facilities complied with the standards by carrying out
a quality assurance inspection program. Further, the OFDT was to develop
and implement a national repository for state and local governments and
private detention space providers to electronically post space availability,
rates, and any included services such as transportation and health care
programs.

Audit Objectives

     The objectives of this Office of the Inspector General (OIG) audit were
to: 1) review the funding and the accomplishments of the OFDT since its
inception in FY 2001; 2) determine how the OFDT coordinates and oversees
detention activities within the Department; and 3) examine the OFDT’s plans
and goals for managing detention needs. Details of our scope and
methodology are presented in Appendix I.




                                    -5-
              FINDINGS AND RECOMMENDATIONS

1.   The Role and Functions of the OFDT

     In December 2000, Congress approved a Department
     request and created the OFDT to centralize and oversee all
     detention functions. However, although the office has
     been in place for almost four years, the OFDT has not been
     able to complete this undertaking. Progress has been
     hampered by the lack of an overall and consistent vision as
     well as other major factors, including the creation of the
     Department of Homeland Security (DHS), which resulted in
     the movement of INS and its alien detention
     responsibilities and funding out of the Department. In
     addition, Congress has changed and expanded the OFDT’s
     responsibilities, causing further uncertainty regarding the
     organization’s purpose. The OFDT has also suffered from
     significant staffing weaknesses, including a period of
     almost 18 months during which the Detention Trustee
     position was filled on a temporary basis with an Acting
     Trustee. The Department has recently taken action to fill
     the Detention Trustee position. However, it must still
     make fundamental decisions regarding the role and
     functions of the OFDT and coordinate this effort with
     Congress, OMB, and DHS.

      Since the OFDT was created in FY 2001, many extraordinary events,
both internal and external, have occurred in its short existence. Below is
a description of these events, in chronological order. A graphic
representation of the significant events is displayed as a timeline in
Appendix III.

Standing Up the OFDT

      As previously noted, the Department attempted to solve longstanding
concerns regarding detention through the creation of the OFDT. The OFDT
was envisioned to be a small office operated separately from the existing
components involved in detention – USMS, INS, and BOP – in order to
develop solutions to issues that went beyond individual component interests.
The OFDT was placed under the direct operational responsibility of the
Deputy Attorney General to ensure that the office had both independence
and credibility within and outside the Department.

                                    -6-
      In December 2000, Congress approved the request and created the
OFDT to “…be responsible for construction of detention facilities…; the
management of funds appropriated to the Department for the exercise of
any detention functions; and the direction of the USMS and INS with respect
to the exercise of detention policy setting and operations for the
Department.”12 Congress appropriated approximately $1 million in both
FY 2001 and FY 2002 for the establishment and continuation of the
organization.

      The first Detention Trustee, a member of the Senior Executive
Service, came on board in September of 2001, about nine months after the
formal creation of the OFDT. The Trustee was a career civil servant with
almost 30 years of experience, most of it in the BOP and related to federal
prisons and prisoners. At the time he took office, the authorized full time
equivalent (FTE) ceiling at the OFDT was three. Following the selection of
the Trustee, the office began to take shape with the leasing of office space
and hiring of personnel. In FY 2002, the OFDT’s FTE ceiling was raised to
six.

       During these two initial fiscal years, the small OFDT staff began
working on a baseline detention report, establishing uniform detention
standards, and performing the other detention-related projects required by
Congress, such as the regional detention pilot projects described on
page 4. However, the OFDT had not yet begun to perform direct detention
activities such as procurement planning or forecasting of detention needs.13

The Department’s Plan to Merge the OFDT into the BOP

      In March 2002, just six months after the initial Detention Trustee was
hired, the Department began formulating a plan to eliminate the OFDT as
an independent entity and transfer its functions and personnel into the
BOP. According to a proposal submitted to OMB in October 2002,
Department officials believed that this organizational change would reduce
bureaucratic layering, streamline the Department’s detention functions,
and eliminate duplication of resources. The effort to transfer the OFDT’s
functions to the BOP lasted for about 15 months. In May 2003 OMB


      12
           Public Law 106-553, enacted on December 21, 2000.
      13
         Appendix II contains information about each of the reports and projects prepared
by the OFDT.

                                          -7-
officially rejected the Department’s proposal and expressed its desire for
the OFDT to remain independent.

      OFDT officials told us that while the proposal was awaiting OMB
approval, OFDT staff met with BOP officials approximately every two weeks
to work on the details of the transition. In addition, the OFDT was instructed
by the Department not to hire any additional staff during the time that the
proposal was under consideration.

OFDT Leadership

      After serving 15 months, the first Detention Trustee retired in
January 2003. The Department named the OFDT’s GS-15 Director of
Programs as the Acting Detention Trustee. Throughout the spring of 2003,
the Department pursued filling the vacancy and a qualified replacement was
selected. However, this candidate turned down the position in June 2003,
because, according to several Department officials, the candidate viewed the
OFDT as an unstable organization. In our opinion, the apparent lack of
support on the part of the Department for an independent OFDT likely
contributed to the concerns about instability.

       In November 2003, Department officials stated that a recruiter was
employed to find a new Detention Trustee, and it was hoped a new
candidate would be hired quickly. The position was announced and open
from December 15, 2003, until January 15, 2004. However, Department
officials reported that the applicants did not meet their needs and, as a
result, the position was not filled from this announcement. Instead, the
Department directed a member of the Senior Executive Service currently
serving as a USMS Assistant Director in the Prisoner Services Division to
transfer into the vacant Detention Trustee position. She reported for duty
at the OFDT on June 15, 2004. Before her arrival, the Detention Trustee
position had been vacant for almost 18 months.

FY 2003 Budget Enhancement

       The FY 2003 federal budget, which was approved by Congress in
February 2003, called for the detention funding of the USMS and the INS
(totaling over $1.3 billion) to be transferred to the OFDT, giving the office
the budgetary authority over all detention activities. However, day-to-day
detention operations remained with the USMS and INS.14 The legislation
      14
          The USMS portion of the detention funding was approximately $700 million and
the INS portion was approximately $600 million.

                                         -8-
also included language calling for the Justice Prisoner and Alien
Transportation System (JPATS) to come under the control of the OFDT.15

       At the time that these funds were transferred, the OFDT was under
the direction of the Acting Detention Trustee, and a total of only five
individuals were on board. In our opinion, the office was ill-equipped to
handle such a large change in fiscal responsibility.

      The FY 2003 appropriation included funding to hire an additional
12 staff, but as previously reported, hiring remained on hold while the
Department attempted to merge the OFDT into the BOP. In addition,
FY 2003 budget legislation documents from the Senate included
recommendations for a transfer of USMS, INS, and BOP staff to the OFDT
so that it could assume full operational control of bed space management.
The Senate advised that it was concerned that the OFDT did not have
control of detention personnel and urged the Department to rectify the
problem. However, this language was not included in the official FY 2003
budget or the accompanying conference report; the appropriations
language remained essentially the same as the prior year.

      The Senate language, however, indicated a change in the Senate’s
intentions for the depth of the OFDT’s responsibility. The language appeared
to envision a larger organization capable of running the day-to-day
operations of detention, which was a marked change from the small,
$1 million organization initially established. The Department responded to
this change of direction by assigning the Justice Management Division’s
Management and Planning Staff (MPS) to develop a plan for a transfer of
necessary staff.16

Creation of the Department of Homeland Security

      As a result of the creation of the Department of Homeland Security
(DHS), the INS left the DOJ in March 2003 and the enforcement portion of
the INS (which included detention) was reorganized as the Bureau of
Immigration and Customs Enforcement (ICE). This shift had major
implications for the OFDT.

     Just one month after the federal budget was approved in
February 2003, the OFDT was required by Congress to transfer the INS’s

     15
          JPATS is discussed in more detail on page 12.
     16
          MPS’s efforts to develop a staffing plan are detailed on page 13.

                                           -9-
detention budget (about $600 million) to DHS. Most importantly, with
ICE’s detention activities and funding no longer under the responsibility of
the Department, the OFDT did not have the authority to oversee all
detention activities and fulfill its original, congressionally mandated
mission.

      Beginning in the spring of 2003, OFDT and ICE officials met to discuss
centralized oversight of detention by the OFDT through the formation of an
Interagency Agreement (IAA), but they could not agree on the terms.
Consequently, in September 2003, OMB was brought in to help with the
negotiations, and in November directed ICE to sign an IAA by December 3,
2003. Even with this intervention, disagreements continued and an
agreement was not finalized until January 28, 2004.

       We asked ICE officials what issues had to be resolved before an
agreement could be reached. First, ICE officials noted that its alien
detainees are entitled to certain privileges that are not required to be
provided to criminal detainees, such as access to telephones, legal materials,
pro bono legal guidance groups, consular offices, and recreation. Detention
officials at ICE told us that they were concerned that the OFDT might not
agree with the priority of these privileges and the detention facilities
procured by the OFDT might be more suitable for the criminal detainees in
the custody of the USMS. Second, ICE was concerned about the proposed
consolidation of previously independent facility inspections being done by
USMS and ICE personnel. Specifically, officials worried that the additional
entitlements for ICE detainees mentioned above would not be evaluated as
part of the consolidated inspections. The third issue of concern to ICE was
how to determine the value of the services provided by OFDT. Finally, ICE
officials opined that the OFDT staffing level might not be adequate to
perform the necessary functions, including ensuring good communication
with ICE.

      The IAA, which was signed on January 28, 2004 (11 months after the
transfer of INS to DHS), was broad in nature, limiting the authority of the
OFDT to perform procurement and contract management services for
non-federal facilities and inspections of such facilities. The IAA did not
involve the OFDT in other ICE detention issues such as projection of future
detention needs, planning of detention space, or general detention policy-
setting. In fact, the IAA named the OFDT as “a provider of procurement
and contract/agreement management support for the ICE non-federal
detention program” [emphasis added]. This language allowed ICE to use
the OFDT for procurement services on an ad-hoc basis. Since signing the


                                    - 10 -
IAA, ICE has requested OFDT assistance with six contracts for detention
space. According to OFDT officials, the office has reviewed the requests
and has begun to take necessary action (such as reviewing environmental
assessments or developing the necessary requests for contract proposals),
but no contracts have been put out for bid as of August 16, 2004.

       The IAA negotiation process required significant time and effort on
the part of the OFDT and, in our opinion, distracted the organization from
addressing other detention needs, such as population forecasting and long-
range planning. In addition, the transfer of INS out of the DOJ fragmented
the government’s detention efforts and caused further disruption in the
mission of the OFDT. Within the DOJ, all non-federal detention operations
were now under the responsibility of the USMS. Without a need to
centralize a function once performed by two Department components,
some questioned the need for the OFDT. As a result, the future of the
office was viewed as uncertain.

Reimbursement Agreements with USMS for Detention Funding

      As previously stated, the OFDT received an enormous budget
enhancement in FY 2003 because it was given control of all DOJ detention
funding that, in the past, had been budgeted to the USMS and INS. After
transferring INS’s funding to DHS, the OFDT only remains in control of the
USMS’s detention funding. However, the OFDT does not directly expend
these funds, but instead acts as a pass-through entity.

       On March 25, 2003, the OFDT and the USMS entered into a
Reimbursement Agreement that set up the system by which the
$758 million for FY 2003 expenses related to the detention of federal
prisoners housed with non-federal service providers would be forwarded
from the OFDT to the USMS.17 Specifically, on a quarterly basis, the OFDT
advanced funding to the USMS to cover its expected detention
expenditures during that period. The USMS then submitted a monthly
certification of summary expenditures made, along with automated
expenditure listings of all USMS district offices. The OFDT reconciled the
certifications to the district expenditure data.

     In our opinion this process for the oversight of USMS detention
expenditures is superficial, without written policies or procedures that

      17
          Similar arrangements were made for FY 2004. However, unlike FY 2003 for which
only one reimbursement agreement was signed, the FY 2004 funds have been transferred
using a series of monthly or bi-monthly agreements.

                                        - 11 -
govern the process. Further, the OFDT has been only minimally involved in
detention-related decisions (such as what facilities are used and the price to
be paid) and the subsequent disbursement of funds.

Addition of JPATS

       In addition to the previously mentioned increases in fiscal
responsibility in FY 2003, Congress again directed in the FY 2004 budget
that JPATS and its $87 million in funding be transferred to the OFDT.
Operated by the USMS, JPATS on average performs more than 270,000
prisoner and alien movements a year. Its operations are financed through a
revolving fund, with each user paying for services on a flight cost-per-hour
basis.

        Created in 1995 through the merger of the air fleets operated by the
USMS and the former INS, JPATS operates a fleet of aircraft, cars, vans, and
buses and routinely serves approximately 40 cities. It supports the federal
judiciary by scheduling and transporting prisoners to courts and detention
facilities around the country, including sentenced prisoners who are in the
custody of the BOP. JPATS also transports ICE criminal and administrative
aliens to hearings, court appearances, and detention facilities. In addition,
JPATS provides regular international flights for the removal of deportable
aliens. JPATS is also available to military, state, and local law enforcement
agencies to shuttle their prisoners between different jurisdictions. As of
FY 2004, JPATS had 146 permanent staff in addition to approximately 210
contractor personnel.

      The transfer of JPATS to the OFDT was first suggested by the Senate
during the FY 2002 budget process, in which it said, “[m]anagement of
JPATS is precisely the sort of task that should be undertaken by the
Detention Trustee.”18 The intent was that the OFDT would be an impartial
arbiter and be able to quickly resolve disagreements among the users of
JPATS. The JPATS transfer was not included in the budget, however, until
FY 2003.

       With the passage of the FY 2004 budget, Congress firmly expressed its
desire for the OFDT to manage JPATS by again directing the OFDT to
become responsible for the management of JPATS. However, Department
officials continued to believe that transferring JPATS to the OFDT was not
feasible at that time because the future of the OFDT was uncertain due to

      18
           Senate Report 107-042, dated July 20, 2001.

                                          - 12 -
the events outlined above (i.e., the retirement of the Detention Trustee, the
increase in budget authority in FY 2003, the transfer of INS to DHS, and the
protracted negotiations with ICE relating to the terms of the IAA). Further,
although the FY 2003 budget raised the OFDT staff size to 18, the office was
not fully staffed until July 2004.

       Currently, much remains uncertain about JPATS. The Department has
not taken action to transfer the management of JPATS to the OFDT. The
new Detention Trustee has held discussions about JPATS with Department
officials, congressional staff, and OMB, and has asserted that the matter will
be addressed as soon as possible. In the meantime, JPATS remains under
the umbrella of the USMS.

Department’s Plans to Enhance the OFDT

      In response to Congress’ recommendations for the OFDT to receive a
transfer of necessary detention staff from BOP, ICE, and USMS,
Department officials required the MPS to assist the OFDT in determining its
personnel needs. In March 2004, MPS submitted a proposal to the
Attorney General recommending that the OFDT receive 37 additional FTEs
in order for it to be capable of handling day-to-day detention operations,
such as facility inspections and contract management. Specifically,
19 positions would be transferred from the USMS and 18 positions would
be funded through a reimbursement agreement with ICE.

       Although this was the final proposal submitted, MPS drafted several
different plans and had extreme difficulty determining the number of staff
to be transferred. Officials stated that this was because Department
officials, USMS, ICE, and OMB were not in agreement about what functions
the OFDT would eventually undertake. For example, the OFDT believed
that Congress expected it to be involved in the day-to-day operations of all
detention in non-federal facilities. The USMS opined that the OFDT was to
be only an oversight agency and therefore would not require the number
and types of staff being discussed for transfer. As a result, there were
many versions of the proposal, particularly as it related to the transfer of
USMS personnel. The first proposal reflected a transfer of 25 USMS
positions. In subsequent draft proposals, this was increased to 35 and
later decreased to 19 and then to 9 positions. The final proposal presented
for approval to the Attorney General and OMB called for a total transfer of
37 positions (19 from USMS and 18 from ICE). According to an MPS
official, this proposal has been shelved due to the recent appointment of



                                    - 13 -
the new Detention Trustee, who is now responsible for determining the
staffing resource needs of the OFDT.

Construction of Non-Federal Detention Facilities

      The FY 2004 budget process also brought to light another challenge for
the OFDT related to the functions expected to be performed by the office.
This challenge specifically related to whether the OFDT had the authority to
contract for construction of a detention facility. The legislation that
established the office in FY 2001 stated “the Trustee shall be responsible
for…construction of detention facilities or for housing related to such
detention…”19 Similar language was included in the FY 2002 budget.
Believing that it was well within the authority granted to it, the OFDT
became involved in a construction contract, as detailed below.

      In response to a growing need for detention bed space in the
Washington, D.C./Baltimore, Maryland, area, the USMS and INS submitted
a joint request in July 2001 to the Department asking for authority to
pursue a 20-year contract with the private sector for 1,500 detention beds.
The components estimated that these beds would be needed by July 2005.
The request was forwarded to the OFDT, which began assessing existing
detention bed space in the region and determined that the only way to
solve the problem would be to build a private, non-federal facility in
Maryland or the District of Columbia. In July 2003, the OFDT began the
procurement process by issuing a pre-solicitation notice for a private
detention facility to be constructed. The notice required potential providers
to submit site surveys within four Maryland counties or the District of
Columbia. In September 2003, the OFDT received four surveys to build a
private, non-federal detention facility in Maryland.

      The procurement process was cancelled, however, when Congress
learned about the construction plan during the FY 2004 budget process and
expressed its concern that the OFDT was addressing detention needs by
contracting to construct a facility. In reports accompanying the FY 2004
budget, Congress further stated that construction was a BOP function and
was never intended to be undertaken by the OFDT.




      19
           Public Law 106-553.

                                    - 14 -
Need for Establishment of the OFDT’s Role and Functions

       The circumstances detailed above illustrate the changing landscape in
which the OFDT has been operating. OFDT officials agreed that it has been
a difficult task to lead the organization through such significant changes.
Throughout our audit we interviewed staff and management at the OFDT,
USMS, ICE, BOP, the OMB, the Justice Management Division, and officials
in the offices of the Deputy Attorney General and Assistant Attorney
General for Administration, and almost everyone we encountered
expressed frustration over the seemingly constant change surrounding the
OFDT and the confusion this caused. More importantly, the officials we
interviewed expressed different opinions as to what the role of the OFDT
was expected to be. The office was viewed by some as an administrative
office responsible for overall oversight of detention issues. Others believed
that the office was expected to run detention operations on a day-to-day
basis, including conducting all inspections, contracting for bed space, and
forecasting detention needs for the government as a whole. Clearly, these
individuals did not have a consistent, clear vision of the office’s purpose or
the direction in which it was heading.

       In our judgment, it is essential that the Department and the OFDT, in
consultation with OMB and Congress, conclusively determine the role of the
office, including its relationships with ICE and JPATS. Once these
fundamental decisions are made, the OFDT needs to establish a strategic
plan that outlines its vision, mission, and functions, along with the steps it
will take to achieve them.20

Recent Developments

      As mentioned previously, the Detention Trustee position was filled with
an Acting Trustee from January 2003 to mid-June 2004. During this period,
Department officials reported having difficulties identifying a suitable
applicant with the appropriate experience in both management and
detention. This problem was solved through the directed transfer of the
USMS Prisoner Services Division Assistant Director. The new Detention
Trustee reported for duty on June 15, 2004 and provided us with an overall
outlook for the OFDT.

   •   Role and Functions – The Detention Trustee agreed that there had
       been a general lack of consistency concerning the OFDT’s role and
       20
        At the start of our audit, the OFDT did not have a strategic plan, and no one that
we contacted was aware of any efforts to create one.

                                          - 15 -
    functions. She explained that the first order of business must be to
    determine if the OFDT is going to manage detention through an
    indirect or direct command and control structure. An indirect
    structure would result in the OFDT acting as an overseer or
    administrator of detention matters, with the USMS and ICE
    performing the actual detention functions. A direct command and
    control structure would place the OFDT in the role of managing the
    day-to-day operations of detention that are performed throughout
    the country.

    In early August 2004, the Detention Trustee presented Department
    management with a draft proposal for the OFDT to act as an overseer
    for the overall DOJ detention program. This would primarily include
    strategic bed-space management (e.g., advanced procurement
    planning and standardization of per diem rates), budget execution
    and formulation (e.g., forecasting and statistical analysis), and policy
    setting (e.g., cost containment initiatives and confinement
    standards). Upon receiving positive feedback from Department
    officials, the OFDT began developing a formal proposal and strategic
    plan.

•   ICE Involvement – The Detention Trustee acknowledged that the
    current agreement with ICE is not an optimal solution for solidifying
    the working relationship between the two organizations. The
    proposal submitted to the Department outlining the suggested
    functions for the OFDT includes provisions for the office to assist
    ICE in the accomplishment of the same broad detention functions
    for which it would act on behalf of the DOJ, except for budget
    execution and formulation. The Detention Trustee believes that the
    IAA can be slightly modified to accomplish this, which will improve
    the effectiveness of the OFDT and federal detention as a whole.
    She further believes that ICE will be receptive to such changes in
    the IAA.

•   JPATS – The Detention Trustee noted the uncertainty surrounding the
    issue of transferring JPATS to the OFDT. She said that she and
    Department management are still examining the feasibility and
    necessity of placing JPATS under the umbrella of the OFDT.




                                  - 16 -
   •   Staffing – The Detention Trustee has recently filled the long-vacant
       position of Deputy Trustee.21 In addition, the Detention Trustee plans
       to evaluate the staffing needs of the office once the OFDT’s role and
       functions are formally established and a strategic plan is in place to
       guide the office in the accomplishment of its mission. Further, the
       Detention Trustee stated that the current OFDT personnel provided
       important skill sets relative to detention issues at the USMS and the
       BOP. However, she hopes to add staff with experience and knowledge
       relative to ICE detention matters.

   •   USMS Reimbursements – To begin to strengthen the process by which
       detention monies are transferred to USMS, the Detention Trustee
       initiated a process in July 2004 to eliminate the need for the
       advancement of funds. The intent of the new process is to have the
       OFDT pay out against bona fide obligations to allow the office to better
       account for the funds it controls.

   •   Outreach – The Detention Trustee has met with officials from OMB and
       Congress and discussed with them the continuing detention
       weaknesses and the challenges that have faced the OFDT. She
       outlined preliminary plans to address these issues and reported that
       the officials responded favorably and expressed their continued
       support for the OFDT in its endeavors to address critical detention
       issues. The Detention Trustee stated that she intends to continue to
       communicate with OMB and Congress as she works with the
       Department to establish the role and functions of the OFDT.

The Future of the OFDT

      After an extended vacancy, the Department has taken action to place
an experienced executive in the Detention Trustee position. The new
Trustee has acknowledged the weaknesses in the OFDT’s operations due to
the lack of a clear and consistent vision for the organization. She has
provided a proposal to management for the OFDT to undertake an oversight
role. Acknowledging that a sizeable portion of federal detention now is
outside the control of the DOJ, she believes that the OFDT can provide a
valuable service to the Department in addressing the concerns that still

       21
         Included in the personnel enhancements authorized in the FY 2003 budget was
funding for the establishment of this as a Senior Executive Service position. Because the
Detention Trustee position was vacant from January 2003 through June 2004, the Deputy
Trustee position also was not filled.



                                          - 17 -
exist, such as population forecasting, procurement planning, and cost
containment initiatives.

      The Department’s recent action to fill the long-vacant Detention
Trustee position has demonstrated its support for the existence of the OFDT.
Moreover, in recent correspondence Department officials expressed to
Congress a commitment to addressing the weaknesses in its detention
management. Department officials also believe that there is value in the
continuation of the OFDT as an organization to address the myriad detention
problems that have plagued the DOJ for over 15 years. In response on
July 22, 2004, Congress stated that it considers the Department’s recent
actions to be positive steps to address detention issues and remains in
support of the OFDT.

Conclusion

      In FY 2001, $1 million was appropriated to establish the OFDT as a
separate component within the Department responsible for centralizing and
overseeing all Department detention functions. This congressional
appropriation was made pursuant to a request from the Department, which
was looking to solve longstanding concerns related to detention. Although
the office has been in place for almost four years, the OFDT has not been
able to carry out its mission.

      The governmental reorganization that resulted in the movement of
INS and its detention functions and funding out of the Department had a
profound effect on the OFDT. This move called into question the need for
the OFDT and set into motion a protracted negotiation over the terms of an
agreement between ICE and the OFDT for the provision of certain services
related to detention of aliens in non-federal facilities. Although an
agreement was signed, this situation has not been completely remedied;
the IAA does not give the OFDT the authority to accomplish the mission of
overseeing detention in non-federal facilities.

      In addition, congressional action has changed the character and spirit
of the OFDT from the small office that was first proposed by the
Department to a larger, more encompassing entity. Specifically, the
budget increased significantly from FY 2002 to FY 2004, primarily a result
of the transfer of detention funding from the USMS and INS to the OFDT.
Also, Congress has expressed that the OFDT should take over the
responsibility for managing JPATS. The OFDT was expected to take on
responsibility for these activities and the related fiscal accountability before


                                     - 18 -
the appropriate staffing level was determined and filled, and before the
OFDT and the Department had formally established the role and functions
of the office.

      Other obstacles have hampered the OFDT’s progress, including the fact
that the Detention Trustee position was vacant from January 2003 through
June 2004. Further, a 2002 Department proposal to merge the OFDT into
the BOP would have eliminated the OFDT’s position as an independent
agency. In contrast, the Department took steps in 2003 and 2004 to greatly
increase the size and status of the OFDT. These actions illustrate, and our
discussions with various officials confirmed, that individuals within the OFDT,
the Department, OMB, and Congress have had different opinions about the
breadth of the office’s responsibilities.

      In June 2004, the Department filled the Detention Trustee position
with an executive with experience in detention issues and has illustrated its
support for the OFDT. Congress and OMB have both acknowledged this
move as a positive step in the Department’s efforts to address detention
problems and stabilize the OFDT. The Department and the OFDT must now
make fundamental decisions regarding the office’s role and functions, which
can then be formalized into a strategic plan.

Recommendations

      We recommend that the Department and the OFDT:

1.    In coordination with OMB and Congress, clearly identify the OFDT’s
      mission and responsibilities;

2.    Prepare a strategic plan for the OFDT that clearly identifies and
      communicates the role, functions, and goals of the office;

3.    Evaluate the functions assigned to the OFDT in order to ensure that
      the office has the necessary complement of staff, experience, and skill
      sets to carry out the strategic plan;

4.    Evaluate the current IAA with ICE and determine if it best serves the
      government, the Department, and the OFDT, and if necessary,
      coordinate with ICE to make any necessary modifications;




                                    - 19 -
5.   Establish and communicate formal policies and procedures to manage
     the OFDT/USMS reimbursement agreement to ensure that the
     detention funds are properly monitored; and

6.   Formulate and communicate a clear, firm decision regarding the
     responsibility for management of JPATS.




                                 - 20 -
2.    Budget Shortfalls

      The number of individuals detained by the Department
      is steadily rising and therefore the associated costs are
      increasing as well. In FYs 2003 and 2004, the OFDT
      recognized that the funds budgeted for detention would
      fall short of the amount needed to fully fund detention
      costs. In FY 2003, the receipt of $40 million in wartime
      supplemental funds rectified the shortfall. For FY 2004,
      the OFDT projected the shortage to be approximately
      $109 million and Congress approved a Department
      request to reprogram funds to cover the shortage.
      Already for FY 2005, the Department has taken action to
      enhance the OFDT’s budget through additional
      reprogramming of $150 million. The Department and the
      OFDT must address the continued lack of accuracy in
      estimating the cost of detention activities that has caused
      the shortfalls to occur and should follow through with
      planned steps to address the continually rising costs of
      detention. Finally, we believe the Department should
      examine IGAs as an additional cost saving measure.

Detention Projections and Budgeting

       Budgeting for detention is not an easy task. Currently, the
Department calculates the amount of funds to be requested for detention
activities using a statistical projection model that takes into account
historical detention needs and the expected number of detainees on a daily
basis. These calculations are impacted by various law enforcement and
prosecutorial initiatives. There is little room for error because sufficient
funds must be available for keeping the detainees (i.e., criminals or illegal
aliens) confined.

       The OFDT employs a statistician, who explained to the OIG that the
BOP and other corrections agencies commonly use prison population models
for projecting fluctuations in the number of incarcerated persons and the
resulting need for space and other resources. He stated that these models
use the relatively static population of prison inmates, where the length of
the sentence is known and the sentence is usually longer than a year. He
also stated that, on the other hand, the detainee population is much more
unstable due to a turnover rate of about nine months.



                                    - 21 -
       Historically, the USMS had contracted with a company to develop a
model and projections of its detainee population. According to the OFDT
statistician, this company used a time series analysis to project the
population, which is based on historical data. While the statistician believed
the company made a good effort in projecting detention bed space needs, he
thought improvements could be made in the methodology employed.
Specifically, he believed the model should take into consideration
prosecutorial variables such as whether the U.S. Attorneys accept or decline
cases, the number of U.S. Attorneys that prosecute cases, and the number
of judges that hear the cases.

       In addition, by its very nature, budgeting occurs far in advance of the
period in which funds are to be used. There is significant advance planning
in the federal budget process; initial budget estimates are submitted about
18 months before the start of the fiscal year. To illustrate, the FY 2004
budget was initially compiled in the spring of 2002. Until the spring of 2003,
the USMS had been responsible for preparing the budget for its detention
activities. At that time, the OFDT took over the detention budget planning
function by preparing the FY 2005 budget request.22

Identification of FY 2003 and FY 2004 Shortfalls

      To monitor the execution of the detention budget, the OFDT reviews
the USMS bed space utilization on a monthly basis and makes a comparison
to the projected figures. During FY 2003, the OFDT projected that the funds
budgeted for detention would not cover the expenses being incurred in the
current fiscal year; in other words, they projected a shortfall. However,
before officials moved to address the shortfall, the OFDT received
$40 million through a Wartime Supplemental Appropriation.23 This funding
covered the detention budget shortage in FY 2003.

      We interviewed an OMB official in early FY 2004 and discussed the
occurrence of the shortfall in FY 2003. At that time, we were told that if a
shortfall occurred again in FY 2004, the Department would have to find the
needed money within its own budget. The OMB official believed Congress
would not assist the Department by appropriating additional funds.
        22
          When the OFDT took over responsibility for budgeting and forecasting, the former
INS had already moved to the DHS. The OFDT is not responsible for budgeting and
forecasting of detention needs outside of the DOJ.
        23
             The Wartime Supplemental Act (Public Law 108-11) was enacted on April 16,
2003.

                                           - 22 -
       Subsequent to the submission of the FY 2004 budget request, the
USMS experienced a substantial increase in the number of detention beds
utilized in non-federal facilities.24 The current population projection
reflected a net daily increase of 1,905 detention beds over the projection
included in the FY 2004 budget request. In order to accurately estimate
the budget shortfall for FY 2004, the OFDT worked with the USMS to
appropriately forecast its needs using year-to-date USMS detention data.
Included in the estimate were the proportional increases in expenditures
for medical services provided to detainees and guard services of
hospitalized detainees. The OFDT calculated that the shortfall between the
amount budgeted ($814 million) and the total amount needed for the
remainder of the fiscal year equaled $109 million.25

      In order to address the projected shortfall, the Department requested
approval from both houses of Congress to reprogram $109 million from
other Department programs to the OFDT. On April 1, 2004, the Department
proposed the reprogramming and transfer of $77.7 million from surplus
funds available in the Asset Forfeiture Fund and $31.3 million from the
Working Capital Fund.26

Congressional Action and Department Response

      In a letter dated April 20, 2004, the House Committee on
Appropriations (Committee) approved the reprogramming and transfer of
$77.7 million from the Asset Forfeiture Fund. At that time, Congress did not
approve the $31.3 million transfer from the Working Capital Fund. Instead,
the Department was directed to work on reducing the average number of
days spent in detention, and to examine the entire detention process from
       24
          Similar to the detention increases within the DOJ, DHS has reported an escalation
in the number of alien detainees in ICE custody. Further, DHS personnel have reported
funding difficulties related to the increase in detainees.
       25
          In addition to the increase in the number of detainee beds required, the detention
budget was also affected by: 1) rescissions enacted along with the overall federal
appropriation, and 2) internal Department reductions. OFDT budget personnel estimated
these negative adjustments at about $20 million.
       26
          The Asset Forfeiture Fund is the repository for seized funds and the sale proceeds
from forfeited property. These monies are primarily used to cover certain operating costs of
the DOJ Asset Forfeiture Program. The Working Capital Fund (WCF) is a revolving fund
subsidized by reimbursements from Department components for the cost of providing
certain administrative services on a centralized basis. The WCF does not receive
appropriated monies from Congress.

                                          - 23 -
commencement to incarceration, to find ways to operate within requested
and appropriated funding levels. It advised that once this was done and the
Committee was assured that appropriate actions were being taken, it might
reconsider a request to reprogram the remaining $31.3 million.

       In a letter to the Committee dated July 8, 2004, the Assistant Attorney
General for Administration (AAG/A) provided a detailed explanation for the
shortfall. He stressed that the individual contract jail costs had remained
relatively flat and that the increased costs instead resulted from
unanticipated increases in the number of detainees, thereby increasing the
amount of necessary bed space and related costs. In other words, the
shortfall was caused primarily by a higher number of beds needed, not the
cost per bed. The AAG/A attributed the additional detainees to new and
continuing law enforcement initiatives by the DOJ and DHS to secure the
nation’s borders and improve public safety. He noted that the OFDT was
aggressively seeking more accurate forecasting methods, including working
with federal law enforcement agencies and U.S. Attorney’s Offices to assess
their staffing levels and current and future law enforcement initiatives.

      In addition, the AAG/A emphasized that the Department and the OFDT
intended to take firm steps to reduce the average detention time during both
the pre-trial and post-sentencing phases. These steps included:

      •     establishing a high-level, interagency steering committee
            (headed by the Detention Trustee) to develop strategies for
            reducing the time from sentencing to commitment by targeting
            high volume districts where processing times are especially long;

      •     developing an action plan for the implementation of the
            interagency steering committee’s strategies through an
            accelerated pilot program along the Southwest border;

      •     implementing a fast-track case-processing program by the
            Executive Office for U.S. Attorneys;

      •     working with the federal judiciary to raise the awareness of
            detention costs and the projected shortfalls;

      •     addressing weaknesses in the infrastructure that have not kept
            pace with population growth (e.g., transportation means)
            thereby increasing detention time and costs; and



                                    - 24 -
       •      exploring operational alternatives where it may be advantageous
              to move recently sentenced offenders to lower-cost beds
              pending their transfer to BOP custody because they no longer
              need to be located in close proximity to court facilities.

       The Department expressed its hope that these plans and the recent
hiring of a permanent Detention Trustee in June 2004 would provide the
Committee with the assurance that it was looking for, and that as a result,
Congress would provide its approval to transfer funds to cover the remaining
shortfall of $31.3 million. On July 22, 2004, and August 5, 2004, the House
and Senate, respectively, approved the Department’s full reprogramming
request. Further, the House expressed its support of the Department’s
efforts to address continuing critical issues related to detention.

Potential Cost Savings Related to IGAs

      As noted above, the OFDT’s efforts to reduce detention costs will focus
on decreasing the amount of time individuals spend in detention. We
believe that additional cost savings can be realized if the OFDT and the
Department address deficiencies in the individual Intergovernmental Service
Agreements (IGAs) established with state and local law enforcement
agencies for detention bed space.

       Historically, the OIG has conducted audits of IGAs and identified
significant overpayments for detention space. Specifically, between FYs
1998 and 2003, the OIG conducted 17 IGA audits and identified questioned
costs totaling in excess of $21 million. Our reports revealed the state or
local governments’ inclusion of unallowable, unallocable, and unsupported
costs in the daily rates paid by the federal government to house detainees.27
For example, in FY 2003, we issued an audit of the costs incurred by the
Orleans Parish, Louisiana Criminal Sheriff’s Office to house federal detainees
in accordance with an established IGA.28 We found that for FYs 2000 and
2001, the Department paid the facility about $10 million for bed space,
which included overpayments of $4 million because the daily rates were
overstated.

       27
           While some of our audits focused on and the related questioned costs were
attributable to the former INS, our findings concerning the local calculation of the daily rate
would apply to IGAs in general, regardless of the federal entity involved.
       28
          OIG Audit Report number GR-60-03-001-R, entitled “U.S. Immigration and
Naturalization Service, and U.S. Marshals Service Intergovernmental Service Agreement for
Detention Facilities with the Orleans Parish Criminal Sheriff’s Office, New Orleans,
Louisiana.”

                                            - 25 -
      In the previously mentioned July 2004 letter to Congress detailing the
Department’s plans for addressing the shortfall in detention funding, the
Department acknowledged that the individual agreements for detention
space are expensive. However, the letter does not include any information
about how, if at all, the Department will address the costly strategy. In our
opinion, the Department’s plans to contain detention costs should include
examining the policies governing IGAs and reviewing individual agreements
to identify any waste or unnecessary costs.

FY 2005 and Future Projections

       The OFDT’s involvement in the detention budgeting arena began in the
spring of 2003 with the FY 2005 budget process. As previously reported, the
OFDT statistician planned to improve upon the USMS’s existing projection
methodology by developing a model to more accurately project the detainee
population by factoring in prosecutorial variables. However, the statistician
explained that the new methodology was not yet ready and therefore, he
utilized the old projecting process, with some minor adjustments, for the
FY 2005 and FY 2006 budget submissions.

      For FY 2005, the Department originally requested a $938.8 million
budget for the OFDT. However, the Department has already identified that
the same increasing detainee population in non-federal facilities will be
present in FY 2005. As a result, they have requested another transfer of
DOJ funds. On July 13, 2004, OMB forwarded to the President its approval
of the Department’s request to adjust its FY 2005 budget submission.
Specifically, the Department provided the OFDT with $150 million in
additional funding by transferring $60 million from the Working Capital Fund,
$35 million originally budgeted for the deployment of the DOJ Consolidated
Office Network in the BOP, and $55 million originally budgeted for a planned
medium-security facility in Mendota, California. The $150 million increase in
the OFDT’s FY 2005 budget request, which now totals almost $1.09 billion,
represents a 16-percent change in expected outlays over the original
submission.

      According to the new Detention Trustee, the FY 2006 budget request
should be revisited as well. She pointed out that the shortfalls in FY 2003,
FY 2004, and that which was anticipated for FY 2005, reflect the upward
trend in the detainee population and associated costs. She further stated
that while the OFDT will endeavor to contain the rising costs, it is unlikely
that the trend will reverse and costs will return to earlier levels. Therefore,


                                     - 26 -
the OFDT will seek to have the $150 million FY 2005 adjustment added to its
base detention funding for FY 2006 and beyond.

      As noted above, the OFDT statistician has identified possible
enhancements to the projection model and had planned to implement them
for the FY 2007 budget process. The new Detention Trustee agrees that the
Department must do a better job forecasting its detention bed space needs
and has stated that implementing a new projection model is a high priority.
She stated that contracting with private firms for this service is expensive
and might not be the most cost-effective method for projecting. She also
said that the OFDT will research the options available, including those
available in-house and in the public sector, and take necessary steps to
implement a revised, more precise, and cost-effective method of estimating
future detention bed space needs.

Conclusion

       Recent budget projections of detention bed space needs have been
significantly inaccurate. The OFDT statistician attributed the lack of
precision to weaknesses in the projection model used to estimate future
detention statistics. The inaccuracies have lead to funding shortfalls and, as
a result, detention activities have had to receive a budgetary bailout from
other Department funding sources. Although the Department has taken
action to identify and address the FY 2004 and FY 2005 projected budget
shortfalls, it is imperative that action be taken to refine the forecasting
methodology that is used to project future detention bed space needs to
more accurately estimate the resources needed to manage this essential
Department function.

       In addition, in the face of rising detention populations, the Department
must endeavor to do what it can to contain costs, including reducing the
time individuals spend in detention facilities, and if possible, reducing the
cost of detaining individuals in non-federal facilities. Some of this is not
within the OFDT’s control – it is instead a function of the law enforcement
community (adding new laws and investigative and prosecutorial initiatives
that increase the number of individuals being detained), the courts
(processing the detainees in a timely manner), and the BOP (timely
designation of the assigned facilities for convicted criminal detainees).
Therefore, it is essential that the Department support the efforts of the OFDT
and other components to control rising detention costs, including evaluating
the current strategy and controls over acquiring detention bed space.



                                    - 27 -
Recommendations

      We recommend that the Department and the OFDT:

7.    Refine the forecasting methodology that is used to project future
      detention bed space needs to more accurately estimate the resources
      needed;

8.    Evaluate the previously submitted FY 2006 budget request to
      determine if an adjustment needs to be made to ensure that a shortfall
      does not occur;

9.    Continue efforts to reduce the average detention time during both the
      pre-trial and post-sentencing phases, including the pilot project on the
      Southwest border, and require the steering committee to report
      related results;

10.   Examine the policies and practices regarding IGAs to develop
      additional areas in which detention costs can be reduced; and

11.   Develop a plan for reviewing and verifying the allowability of costs
      associated with individual IGAs.




                                    - 28 -
              STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the OFDT, we considered its
control structure for the purpose of determining our audit procedures. This
evaluation was not made for the purpose of providing assurance on its
internal control structure as a whole. However, we noted certain matters
involving internal controls that we considered to be reportable conditions
under the Government Auditing Standards.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operations of the internal control
structure that, in our judgment, could adversely affect OFDT’s ability to
effectively oversee federal detention in non-federal facilities. We identified
weaknesses in: 1) the defining of the OFDT’s role and functions, 2) strategic
planning, 3) staffing/hiring, and 4) the forecasting of detention bed space
needs and the related impact on budget execution. These issues are
discussed in the Findings and Recommendations section of the report.

       Because we are not expressing an opinion on OFDT’s internal control
structure as a whole, this statement is intended for the information and use
of OFDT management. This restriction is not intended to limit the
distribution of this report.




                                    - 29 -
                                                                 APPENDIX I


           OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      We have completed an audit of the Office of the Federal Detention
Trustee. The objectives of the audit were to: 1) review the funding and the
accomplishments of the OFDT since its inception in FY 2001; 2) determine
how the OFDT coordinates and oversees detention activities within the
Department; and 3) examine the OFDT’s plans and goals for managing
detention needs.

Scope and Methodology

      We performed the audit in accordance with the Government Auditing
Standards issued by the Comptroller General of the United States, and
accordingly included such tests of the records and procedures that we
considered necessary. The audit covered the period from the establishment
of the OFDT in FY 2001 to the present.

     We interviewed numerous personnel regarding their role in the
detention area and their working relationship with the OFDT. In addition to
meeting with officials at the OFDT, we interviewed officials at:

     •       the Office of the Deputy Attorney General;

     •       the Office of the Assistant Attorney General for Administration,
             including the Chief Financial Officer and Deputy Chief Financial
             Officer;

     •       the United States Marshals Service;

     •       the Federal Bureau of Prisons;

     •       the Justice Management Division (JMD) Management and
             Planning Staff;

     •       the JMD Budget Staff;

     •       the Department of Homeland Security, Bureau of Immigration
             and Customs Enforcement; and

     •       the Office of Management and Budget.


                                     - 30 -
      We also examined budget and other planning documents, as well as
reports prepared by the OFDT, correspondence, historical detention
information, policies, procedures, public laws, and related legislative
history.




                                  - 31 -
                                                                     APPENDIX II


                    OFDT REPORTS AND PROJECTS

  Congressionally Mandated Reports

          Congress directed that the newly created OFDT prepare a
  number of reports and projects related to detention. The OFDT has
  fulfilled these mandates and generally has been timely in performing
  and completing the projects.29 The reports and projects, and the
  legislative reference to the assignment are listed below, followed by
  more detailed information about each project.

                 CONGRESSIONALLY MANDATED REPORTS


                 LEGISLATIVE
YEAR                                               REPORT/PROJECT TITLE
                  REFERENCE

                                                  Federal Detention Statistical
2001          House Report 107-139
                                                          Compendium

                                                  Detention Needs Assessment
2001          House Report 107-139
                                                           and Baseline

                                                         Chicago, Illinois
2001          House Report 107-139
                                                     Detention Pilot Project

                                                   El Paso, TX/Las Cruces, NM
2001          House Report 107-139
                                                     Detention Pilot Project

2003          House Report 108-010                 Plan for Medical Evaluation

                                                Aircraft Replacement Procurement
2003            Public Law 108-7
                                                         Strategy for JPATS


                                           Plan to Evaluate the Health and Safety
2003            Public Law 108-7                  of Federal Prisoners Held in
                                               Non-Federal Detention Facilities




         29
            Our review of these reports was limited to assessing the timeliness of the
  project and determining, in general, if the congressional mandate was achieved. We
  did not perform a detailed review of the material.


                                       - 32 -
                                                            APPENDIX II

                                The Federal Detention Statistical
                                Compendium provided an overview of
                                detention statistical trends from 1994 to
                                2001. This 28-page report explored
                                criminal detention (defendants awaiting
                                hearings or commitment in the USMS’s
                                care) and administrative detention (aliens
                                awaiting deportation by INS), including the
                                number of detainees, the types of charges,
                                the number and locations of detention
                                facilities, the time to process detainees, and
                                the departmental resources available.




The Detention Needs Assessment and
Baseline Report was developed to
determine the present efficiency and
effectiveness of all aspects of detention and
detainee handling, against which subsequent
process improvements would be assessed.
This 30-page report assessed the current
state of federal detention, highlighting critical
areas of concern and opportunities for OFDT
action.




                                         The Chicago, Illinois Detention
                                         Pilot Project and El Paso,
                                         TX/Las Cruces, NM Detention
                                         Pilot Project reports identified
                                         process improvements in the
                                         areas of consolidation and
                                         oversight of federal detention.
                                         For each site, the OFDT
                                         collaborated with multiple law
                                         enforcement agencies to:
                                         1) establish a baseline of the
current state of detention operations, 2) address future detention
needs, 3) identify operational areas of improvement, and 4) develop
an action plan to implement recommendations and measure
performance.

                                 - 33 -
                                                         APPENDIX II



The Plan for Medical Evaluation was to determine the impact of
18 U.S.C. Section 4006 on the delivery of health care services to
detainees in the custody of USMS and ICE. This evaluation has not
been finalized. The OFDT issued a memo regarding the contracting
out of this report; however, the contractor experienced delays. The
OFDT provided constant updates to the Deputy Attorney General. A
draft was sent to the affected agencies (BOP, USMS, and ICE), their
comments were received, and it has been forwarded to Department
management.




The Aircraft Replacement Procurement
Strategy for JPATS report was a review of
the current replacement strategy and
possible alternatives to obtain better
efficiency. This report explained the current
practices and strategy for large aircraft long-
term leasing; it subsequently outlined a
purchase replacement strategy.




                             The Plan to Evaluate the Health and
                             Safety of Federal Prisoners Held in Non-
                             Federal Detention Facilities was developed
                             by reviewing areas of health care, safety
                             and sanitation, and security and control.
                             This 13-page report addressed the current
                             federal practices, the plan of action for
                             future efforts, and the plan for remedial
                             action for deficient facilities.




                                - 34 -
                                                                APPENDIX II

Other Projects

      In addition to the mandated reports described above, the OFDT
was tasked with several projects to be accomplished as a part of their
mission.30 These included the following:

   •   assembling the uniform National Detention Standards,

   •   the creation of a National Repository for Detention Space
       Availability, and

   •   the development of standardized inspection policies and
       procedures for non-federal facilities housing federal detainees.




       30
          The OFDT has addressed each of these projects; we did not review them
or evaluate their content or sufficiency.


                                   - 35 -
                                                                                                                                                                                                                          APPENDIX III


                                                                         TIMELINE OF SIGNIFICANT EVENTS


                                                           September 2001                                                                                                                               January 28, 2004
IN TERN AL DO J ACTION S



                                                          Attorney General names first                                                                                                              The Interagency Agreement
                                                               Detention Trustee                                                                                                                    between the OFDT and ICE
                                                                                                                   January 2003                                                                             is finalized.
                                                                                                              Detention Trustee retires and
                                                                                                              Acting Trustee is appointed.


                           April 14, 2000                                                                                                                                July 2003
                           DOJ requests creation                                                                                                            JMD/MPS is directed to assist the OFDT in
                           of a Federal Detention                                                                                                           the transfer of positions from USMS, ICE,
                                  Trustee.                                                                                                                                  and JPATS.
                                                                                    March 2002                                                                                                                            June 15, 2004
                                                                                   DOJ proposes merging                                                                                                                   New Detention Trustee
                                                                                      OFDT into BOP.
                                                                                                                                                                                                                            reports for duty.




                              FY 2000                   FY 2001                        FY 2002                                                   FY 2003                                                          FY 2004




                                                                                                                                                                        May 2003                                            July 22, 2004 &
                                                                                                                                   March 1, 2003
EXTERN AL ACTION S




                                                                                                                                     INS moves to DHS -
                                                                                                                                                                       OMB notifies DOJ                                    August 15, 2004
                                   October 25, 2000                                                                                                                    that the transfer of
                                                                        November 9, 2001                                           Funds transferred from                                                                  House and Senate approve
                                                                                                                                                                     the OFDT to the BOP
                                       Congress approves                                                                               OFDT to DHS.                                                                        reprogramming to rectify
                                                                                  Congress approves                                                                     is not approved.
                                    $1 million (3 FTEs) for the          $1 million (6 FTEs) for the OFDT's                                                                                                                       shortfall.
                                      creation of the OFDT.                        FY 2002 budget.




                                                                                                              February 12, 2003                    April 12, 2003                                  January 23, 2004
                                                                                                                    Congress approves                  In a Wartime                                  Congress approves
                                                         July 20, 2001                                        $1.3 billion (18 FTEs) for the           Supplemental                              $814 million (18 FTEs) for the
                                                                                                                  OFDT's FY 2003 budget           Appropriation, Congress                         OFDT's FY 2004 budget (includes
                                                        The Senate suggests that                                                                   provides an additional                          USMS detention resources and
                                                                                                              (includes detention resources
                                                        management of JPATS is                                                                    $40 million to OFDT for
                                                                                                                                                                                                             JPATS).
                                                                                                                 for INS and USMS and the
                                                         a task for the OFDT.                                                                            detention.
                                                                                                                   management of JPATS).




                                                                                                                                 - 36 -
                                       APPENDIX IV


OFFICE OF THE FEDERAL DETENTION TRUSTEE RESPONSE




                       - 37 -
- 38 -
- 39 -
- 40 -
- 41 -
                                                                 APPENDIX V



     OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
            ANALYSIS AND SUMMARY OF ACTIONS
              NECESSARY TO CLOSE THE REPORT

Recommendation Number:

1.     Resolved. The OFDT agreed with our recommendation and reiterated
       that it submitted a reorganization proposal to the Department on
       September 13, 2004, which provides for the OFDT to undertake an
       oversight role, including strategic management, budget execution and
       formulation, and policy. At this time, the OFDT is awaiting approval of
       the plan by Department management. In order to close this
       recommendation, please provide us with documentation showing that
       the OFDT reorganization proposal has been approved by the
       Department and that the plan has been implemented.

2.     Resolved. The OFDT responded that it agreed with our
       recommendation and said that the reorganization proposal identified in
       Recommendation Number 1 provides the framework for a strategic
       plan that clearly identifies and communicates the role, functions, and
       goals of the office. In order to close this recommendation, please
       provide us with the finalized strategic plan. In the interim, please
       keep us informed of your progress in developing and implementing the
       plan.

3.     Resolved. The OFDT agreed with our recommendation and stated that
       the reorganization proposal identified in Recommendation Number 1
       provides the necessary staffing analysis. In order to close this
       recommendation, please provide us with a copy of the staffing analysis
       and information about action taken in response to the analysis.

4.     Resolved. The OFDT agreed with our recommendation and said that
       it has initiated discussions with ICE about the need for an amended
       IAA. This recommendation can be closed when the OFDT provides
       documentation to support the agreed-upon definition of roles and
       responsibilities for the OFDT and ICE and, if appropriate, a copy of the
       amended IAA.

5.     Resolved. In its response, the OFDT stated that it agreed with the
       recommendation and has required the USMS to develop a district-level
       operating plan that must be submitted to the OFDT for approval for FY
       2005. This recommendation can be closed when we receive a copy of
       the OFDT-approved USMS district-level operating plan, guidelines


                                     - 42 -
      governing the process for fund transfers to the USMS, and actual
      examples of USMS submissions and the related OFDT payments.

6.    Resolved. The OFDT responded that it agreed with our
      recommendation and that Department of Justice leadership is currently
      reviewing the JPATS issue and discussing available options with
      Congress. In order to close this recommendation, please provide us
      with the final outcome of the decision makers’ discussions regarding
      JPATS management. If a decision has not been made at the time of
      the next correspondence, please provide us a detailed explanation of
      the status of discussions.

7.    Resolved. The OFDT agreed with our recommendation and said that
      it is refining the projection model by incorporating measurable and
      reliable leading indicators, such as increases in the number of new law
      enforcement officer and Assistant U.S. Attorney positions. This
      recommendation can be closed when the OFDT provides evidence that
      a refined projection model has been employed. In the interim, please
      keep us informed of your efforts to employ new projection techniques.

8.    Resolved. The OFDT agreed with our recommendation and stated
      that it has begun to update the budget requests. To close this
      recommendation, please provide documentation of the OFDT’s efforts
      to address budget issues for FY 2006. In addition, since the issuance
      of our draft report, the FY 2005 budget was passed at a greatly
      decreased amount than the adjusted request of $1.06 billion.
      Therefore, please provide us with the OFDT’s plan to deal with what
      appears to be an imminent and significant budgetary shortfall.

9.    Resolved. In its response, the OFDT stated that it agreed with the
      recommendation and explained that the system design for the Arizona
      Sentencing to Incarceration Pilot Project is complete and ready to be
      implemented. To close the OIG’s recommendation, the OFDT must
      provide us with evidence that the project has been implemented and
      detention time has been reduced. In addition, please provide
      documentation of the results achieved and any OFDT analysis of the
      project, including future plans for more widespread implementation of
      the project.

10.   Resolved. The OFDT responded that it agreed with our
      recommendation and stated that it will require that each detention
      agency strategically plan its procurement needs utilizing an Advance
      Procurement Plan. According to the OFDT, effective planning will
      ensure equality of rates and coordination of activities. To close this
      recommendation, please provide the Advance Procurement Plans and


                                     - 43 -
      documentation of the OFDT’s efforts in its strong oversight role to use
      these plans to identify and realize cost savings.

11.   Resolved. The OFDT agreed with our recommendation and said that
      it would like a more standardized approach and plans to make
      improvements to the IGA process. As noted in our report, the OIG has
      historically identified significant questioned costs when independently
      auditing IGAs. Therefore, we believe the OFDT should exercise its
      strong oversight role in the IGA area and organize a more robust plan
      for ensuring that bed space providers are appropriately reimbursed.
      This recommendation can be closed when we receive the evidence of
      the improvements made to the IGA process. In the interim, please
      provide specific information regarding planned actions and the
      expected outcomes.




                                     - 44 -
